            Office of Inspector General




March 20, 2006

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT:         Management Advisory – Status Report on the Evolutionary Network
                 Development Initiative (Report Number NO-MA-06-001)

This management advisory presents the results of our self-initiated review of the
Evolutionary Network Development (END) initiative1 (Project Number
05WG005NO000). This review is part of an ongoing audit to evaluate the END initiative
which affects the $25.5 billion processing and distribution infrastructure. Our overall
objective was to evaluate progress on END and identify key challenges in the planning,
development, and implementation process.

Although this report contained no recommendations, we provided U.S. Postal Service
management the opportunity to provide comments. Management generally agreed with
the issues discussed.

                                              Background
The President’s Commission on the Postal Service (the President’s Commission)2 said
that the Postal Service has more infrastructure than needed and many assets are not
effectively aligned with changing requirements. The infrastructure includes over
450 mail processing facilities, along with one of the world’s largest transportation
networks featuring some 215,000 vehicles and more than $5 billion in annual contracts
for highway, air, rail, and water transport. The President’s Commission believes these
operations are inefficient and cost the Postal Service billions of dollars in unnecessary
expenses. The President’s Commission called the END initiative the most important
deliverable in the Transformation Plan.3

1
  Various names have been used for the END initiative including Network Integration and Alignment and Network
Rationalization. For consistency, we are using END throughout this report.
2
  Report of the President’s Commission on the United States Postal Service, dated July 31, 2003.
3
  United States Postal Service’s Transformation Plan, dated April 2002.
Status Report on the Evolutionary Network                                                        NO-MA-06-001
 Development Initiative


Postal Service management recognized the problem with its infrastructure and the need
to consolidate or close facilities, and standardize and modernize those that remained.
As part of the Postal Service’s Transformation Plan, they developed the END initiative
to optimize its processing and transportation network. The END initiative contains
processes and tools for analyzing the optimal number, location, and functions of mail
processing and transportation facilities. The charter of END is to create a flexible
logistics network that reduces Postal Service and customers’ costs, increases
operational effectiveness, and improves consistency of service.

The Postal Service’s Strategic Transformation Plan 2006-2010 states that efforts to
create a flexible network to increase productivity and effectiveness will continue as an
evolutionary process.

                           Objective, Scope, and Methodology
The objective of our review was to evaluate progress on the END initiative and identify
key challenges in the planning, development, and implementation process.

To accomplish our objective, we reviewed the Transformation Plan; Transformation
Plan Progress Reports; the Postal Service’s response to Congress on infrastructure and
workforce rationalization;4 the Postal Service Strategic Transformation Plan 2006-2010;
and other documents related to the END project. We also reviewed the Report of the
President’s Commission on the United States Postal Service and pertinent Government
Accountability Office (GAO) reports and testimonies. In addition, we interviewed Postal
Service Headquarters officials and researched various planning approaches. We did
not conduct tests of internal controls because of the limited scope of our review and did
not rely on any computer-generated data to support our report.

We conducted this review from March 2005 through March 2006 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations and conclusions with management officials and included
their comments where appropriate.




4
 Response to Congress – Infrastructure and Workforce Rationalization: Funding Key Capital Investments, United
States Postal Service, January 2004.




                                                       2
Status Report on the Evolutionary Network                                                                NO-MA-06-001
 Development Initiative


                                          Prior Audit Coverage
The U.S. Postal Service Office of Inspector General (OIG) issued a whitepaper5 and
two audit reports6 on the END initiative. The whitepaper described the END project,
reported its status, and identified external project oversight functions. The first report
stated that the Postal Service conducted limited verification and validation of the END
models, but they were not independent or fully documented. Management agreed with
the OIG’s recommendation to use an independent Postal Service team to conduct
verification and validation of the models. The second report explained how the OIG
assisted the Postal Service’s END Independent Verification and Validation team. That
report made no recommendations.

In April 2001, the GAO designated the Postal Service’s transformation efforts as “high-
risk” because of concerns that the Postal Service would not be able to continue
providing universal postal service at reasonable rates while remaining self-supporting
through postal revenues. The Postal Service’s transformation efforts remain on the
January 2005 updated list of high-risk areas.

The GAO issued three congressional testimonies7 and one audit report that examined
the Postal Service’s strategy for streamlining its processing and distribution network.
The testimonies identified difficulties in optimizing the Postal Service’s network including
the lack of standardization, inefficiency, and excess capacity. The GAO stated the
Postal Service’s vision of right sizing its infrastructure was achievable if approached in a
comprehensive, integrated fashion, with appropriate communication and coordination
with stakeholders. The GAO recommended the Postal Service prepare a publicly
available plan that lays out its vision and strategies for rationalizing its infrastructure. In
addition, the GAO reviewed the Postal Service’s mail processing infrastructure.8 They
recommended the Postal Service establish criteria for evaluating realignment decisions
and establish a mechanism for informing stakeholders as decisions are made.




5
  Network Integration and Alignment Project (Product Number AC-OT-03-001, dated September 23, 2003).
6
  Network Integration and Alignment Models – Independent Verification and Validation
(Report Number NO-AR-04-005, dated February 24, 2004). OIG Assistance to Evolutionary Network Development
Independent Verification and Validation Team (Report Number NO-MA-05-001, dated March 29, 2005).
7
  Key Postal Transformation Issues (Report Number GAO-03-812T, dated May 29, 2003); Bold Action Needed to
Continue Progress on Postal Transformation (Report Number GAO-04-108T, dated November 5, 2003); and Key
Elements of Comprehensive Postal Reform (Report Number GAO-04-397T, dated January 28, 2004).
8
  U.S. Postal Service: The Service’s Strategy for Realigning Its Mail Processing Infrastructure Lacks Clarity, Criteria,
and Accountability (GAO-05-261, dated April 2005).




                                                           3
Status Report on the Evolutionary Network                                                               NO-MA-06-001
 Development Initiative



                                                     Results
END Project Evolution

Although we are aware that the Postal Service END initiative continues to evolve, this
report documents the progress to date of network changes and identifies some key
challenges. We are not making recommendations in this report; however, future reports
may contain recommendations.

The Postal Service is taking an incremental approach to streamlining the mail
processing networks using END as a framework. This represents a shift from its initial
focus of optimizing the performance of the entire mail processing and transportation
infrastructure. Postal Service management has stated that its only realistic course is to
continuously examine the network for inefficiencies and redundancies and to
standardize the best operational practices. We recognize that transforming the
infrastructure is difficult and complex. The Postal Service’s processing and logistics
network is one of the largest networks in the world and affects a $900 billion domestic
mail industry. Research9 supports an incremental approach in an unpredictable
environment with complex technology such as the Postal Service faces. An incremental
planning approach also supports prototype and pilot testing.

                                                Status of END
Network Changes

Changes to the processing and distribution networks include:10

    •    The Postal Service reduced over 187 million workhours during fiscal years
         (FY) 2000 through 2005. The Postal Service has also eliminated more than
         80,000 career positions. Throughout the changes, the Postal Service has
         maintained or improved service performance.

    •    Since 1999, the Postal Service has closed 40 remote encoding centers that use
         advanced technology to remotely assign barcodes to hand-addressed mailpieces
         located at general mail facilities.

    •    The Postal Service has closed 50 annexes, which are temporary plants used for
         mail processing when space is limited.



9
  Internet article titled “Does Strategic Planning Still Fit in the 2000s?” by Jim Mackay, Managing Partner, The
Berkeley Consulting Group, www.berkeleyconsulting.com, May 2004; “Evolutionary Project Management and
Product Development” by Kai Gilb, December 4, 2004.
10
   Some workhour reductions, transportation contracts, and facility closures may indirectly be related to END.



                                                           4
Status Report on the Evolutionary Network                                                                   NO-MA-06-001
 Development Initiative


     •   The Postal Service has closed two international service centers that process
         international mail.

     •   The Postal Service has reduced highway contract miles by over 65 million miles
         during FYs 2004 and 2005.

     •   Using Area Mail Processing (AMP) Guidelines, the Postal Service has
         consolidated mail processing operations at 28 plants since 1995, helping to
         reduce excess capacity and streamline processing operations. During 2005,
         they moved mail processing operations at the Marina Del Rey Processing and
         Distribution Center (P&DC) to the Los Angeles and Long Beach P&DCs,
         resulting in closing the Marina Del Rey facility. The Postal Service uses AMP
         guidelines to implement the goals of END and plans to use AMP consolidations
         more in the near future.11

     •   The Postal Service has converted Priority Mail processing centers, which
         process only Priority Mail, to logistics and distribution centers which process
         multiple types of mail.

     •   The Postal Service will convert P&DCs, which process and dispatch First-Class
         Mail, Periodicals, and parcels, to local and destinating processing centers.
         These facilities generally perform distribution of collection mail for transport to
         regional distribution centers (RDC)12 or delivery units.

     •   The Postal Service is converting airport mail centers to air transfer centers. The
         role of the air transfer center is to tender mail to and from air transportation
         suppliers. During FYs 2002 through 2005, the Postal Service converted
         13 airport mail centers. Processing operations were moved from airport mail
         centers to processing centers.

     •   The Postal Service’s Hub and Spoke Program will be converted to surface
         transfer centers that will help maximize transportation capacity. Surface transfer
         centers will consolidate containers from multiple facilities to maximize
         transportation utilization.

     •   The Postal Service is converting bulk mail centers (BMC), which process and
         distribute bulk Standard Mail and parcels, to RDCs to address redundancies in
         the network. RDCs will also process other types of mail.


11
    AMP is the consolidation of mail processing functions, typically from several facilities into one centralized facility,
for the purpose of eliminating excess capacity, increasing operational efficiency, and making better use of existing
space, staffing, processing equipment and transportation capacities.
 12
    RDCs will consolidate trays and tubs containing letters to maximize transportation utilization. Priority Mail will be
sorted to destinating RDCs and parcels will be dispatched to airport transfer centers, destinating RDCs, and surface
transportation centers.



                                                             5
Status Report on the Evolutionary Network                                                                                          NO-MA-06-001
 Development Initiative


See Appendix A for a table showing significant network changes made since 1995. In
addition, the OIG has conducted 42 mail processing efficiency and transportation
reviews. A list of related OIG reviews is included in Appendix B.

END Mailflow Concept

As part of the END initiative, the Postal Service developed a distribution concept that
standardizes and simplifies mailflows. This future network is based on RDCs, LPCs
and DPCs. The Postal Service will convert most BMCs to RDCs and most P&DCs to
LPCs and DPCs. (Diagram 1 displays a simple version of the new mailflow concept).


                                                     END MAILFLOW CONCEPT
                                                                                                                Destinating
                                                                                                                Mail

                                                                           Surface Transfer
                                                                           Centers (STC)
                                                   Regional                                           Destinating
                                             Distribution Center                                       Regional
                                                    (RDC)                                         Distribution Center
                                                                           Airport Transfer             (DRDC)
                                                                           Centers (ATC)



                               Post Office

   Window Mail
 Collected at Post Office or
          branch




                                             Loading Processing                                 Destination Processing
          CARRIER                               Center (LPC)                                        Center (DPS)
          Mail is picked up
          from home,                                                                                                             CARRIER
          businesses & mail                                  Legend:                                                              Mail delivered
          boxes
                               Originating
                               Mail                          LPC = Loading Processing Center gathers
                                                             mail and sends non-local mail to the RDC
                                                             for further processing.                               Post Office
                                                             RDC = Regional Distribution Center
                                                             performs 3-digit sort and sends to DRDC.
                                                             DRDC = Destinating Regional Distribution
                                                             Center performs 5-digit sort and sends to
                                                             the destinating facility.
                                                             DPC = Destination Processing Center
                                                             performs finer sort for carriers in walk
                                                             sequence.
                                                             STC = Surface Transfer Center
                                                             consolidates mail and trucks to its
                                                             destination facility.
                                                             ATC = Airport Transfer Centers tender
                                                             mail to and from air transportation
                                                             suppliers.


                                                                        Diagram 1




                                                                               6
Status Report on the Evolutionary Network                                                                NO-MA-06-001
 Development Initiative


                                           Major END Challenges

Streamlining the networks presents the Postal Service with many challenges.13 The
following program management challenges are key to effectively evolving the mail
processing and distribution networks:

     •   Opposition to Infrastructure Changes: Most network changes the Postal Service
         has proposed have met vigorous opposition from local communities and their
         elected representatives. We recommended in our audit report titled Area Mail
         Processing Guidelines14 that the Postal Service develop a process for addressing
         resistance to mail processing consolidations and facility closures. Our review
         showed that opposition to proposed network consolidations affected the approval
         and implementation of changes.

     •   Project Management Structure: The END project manager, who managed the
         modeling efforts, directly reports to the vice president, Network Operations
         Management. As the project matures and requires involvement across the
         Postal Service (e.g., Engineering, Facilities, Labor, Operations, and Contracts),
         project management may need to be elevated to a formal END steering
         committee. Without the END steering committee, management could have
         difficulty integrating business processes across the Postal Service and ensuring
         that all components of the organization responsible for its success are included in
         the process.

     •   Integration of AMP with END: Postal Service management stated that AMP was
         a tool they were using to incrementally implement END; however, documentation
         supporting the link between END and AMP was not always available. END uses
         a top-down approach to develop network solutions based on optimization and
         simulation models and has national implications. AMP uses a bottom-up
         approach to develop solutions based on a separate process to evaluate the
         consolidation of mail processing functions and has local implications. Without
         clear guidance, the Postal Service may waste funds if network changes are not
         consistent with the END framework.

     •   Short-Term Integrated Plan for Network Changes: The GAO report on the Postal
         Service’s infrastructure15 recommended the Postmaster General develop a
         process for implementing decisions.16 Without a short-term plan for achieving
         network changes, there is no assurance that management will properly sequence

13
   The END initiative will also encounter other challenges not discussed in this report. Examples include projected
declines in First-Class Mail, increasing number of delivery points, the rising cost of fuel, and funding.
14
   Area Mail Processing Guidelines (Report Number NO-AR-06-001, dated December 2005).
15
   U.S. Postal Service: The Service’s Strategy for Realigning Its Mail Processing Infrastructure Lacks Clarity, Criteria,
and Accountability (GAO-05-261, dated April 2005).
16
   The GAO also recommended that the process include evaluating and measuring the results, as well as the actual
costs and savings resulting from the decisions.



                                                           7
Status Report on the Evolutionary Network                                    NO-MA-06-001
 Development Initiative


        and integrate the various incremental network changes. In addition, oversight
        groups may have difficulty validating the Postal Service’s methodology when
        questions are raised.

Conclusion

The Postal Service is making some progress in their ongoing effort to streamline the
mail processing and transportation networks. Given the size and complexity of this
effort, it appears that taking an incremental approach to network changes represents an
acceptable method for reducing inefficiencies and standardizing best operational
practices. As identified in this report, major challenges remain and need to be
addressed.

Management’s Comments

Management agreed with our observations with several exceptions. Management
requested we discuss airport mail center conversions to airport transfer centers and
postal automated technology programs such as Automated Package Processing
System and Flat Sequencing System separately from END. Management stated that
each AMP proposal is validated against the END modeling output to ensure alignment
with the long-term network strategy. Further, they asserted that the difference in
approaches (top-down vs. bottom-up) between the two processes actually complements
the overall network design. Management’s comments, in their entirety, are included in
Appendix C of this report.

Evaluation of Management’s Comments

We kept our discussion of airport mail center conversions in this report since these
centers are addressed in the Postal Service’s 2006-2010 Strategic Transformation Plan
as part of the END effort. While we believe that automated technology challenges are
important components of the END effort, we removed our discussion about them and
will address technology issues in other reports. Lastly, because the Postal Service did
not provide us with END-generated outcomes, we could not validate any link between
AMP and END during the course of this review. Postal Service officials stated they are
constantly adjusting the END outputs for mail volumes and local operational issues. For
those reasons, any network design may be subject to change during the course of this
transition. We plan to re-address the AMP and END integration issue later this fiscal
year.




                                            8
Status Report on the Evolutionary Network                                  NO-MA-06-001
 Development Initiative


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert J. Batta, director,
Network Operations – Processing, or me at (703) 248-2300.




Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    Pranab M. Shah
    David E. Williams
    Steven R. Phelps




                                            9
Status Report on the Evolutionary Network                                                                  NO-MA-06-001
 Development Initiative



                  APPENDIX A. NETWORK CHANGES SINCE 1995

                                          NETWORK CHANGES
                                                     INVENTORY AS          NUMBER AND TYPE OF            INVENTORY AS
     TRANSPORTATION AND PROCESSING                         OF                   CHANGE                        OF
               FACILITIES                              OCTOBER 1,                                        SEPTEMBER 30,
                                                                            RENAMED          CLOSED          2005
                                                          2002

      Processing and Distribution Centers to
                                                           271                   0              1               270
 Local Processing/Destination Processing Centers
         Priority Mail Processing Centers
                         to                                12                   12              0               12
         Logistics and Distribution Centers
            Air Mail Centers/Facilities
                                                           71
                        to                                                      13              0               71
               Air Transfer Offices
           Hub and Spoke Program
                       to                                  14                   14              0               14
           Surface Transfer Centers
               Bulk Mail Centers
                       to                                  21                    0              0               21
          Regional Distribution Centers

            OTHER FACILITIES17                                               Changes Since 1995

            Remote Encoding Centers                        55                                   40              15
                     Annexes                               115                                  50              65
          International Service Centers                     7                                   2               5

             OTHER CHANGES

                                                       28 consolidations since 1995 (includes two in FY 2004 and one in
              Area Mail Processing
                                                                                  FY 2005)

              Workhour reductions                             Over 187 million workhours eliminated since FY 2000

                Career positions                              Over 80,000 career positions eliminated since FY 2000

                                                       Over 65 million highway contract miles reduced during FYs 2004
             Transportation Network
                                                                                 and 2005




17
  The Postal Service has approximately 195 customer service facilities. These facilities have limited mail processing
capacity and were not included in the above table.



                                                         10
Status Report on the Evolutionary Network                                     NO-MA-06-001
 Development Initiative



                        APPENDIX B. RELATED PRODUCTS

Network Operations - Processing

Efficiency Review of the Washington Bulk Mail Center (Report Number NO-AR-06-003,
dated February 22, 2006)

Efficiency of the Chicago Airmail Records Unit at the J.T. Weeker International Service
Center (Report Number NO-AR-06-002, dated December 22, 2005).

Efficiency Review of the Canton, Ohio Processing and Distribution Facility (Report
Number NO-AR-05-013, dated September 22, 2005).

Efficiency of the Airmail Records Unit at the San Francisco International Service Center
(Report Number NO-AR-05-012, dated September 6, 2005).

Efficiency of the Los Angeles International Service Center (Report Number NO-AR-05-
011, dated June 17, 2005).

Efficiency of the Airmail Records Unit at the Los Angeles International Service Center
(Report Number NO-AR-05-010, dated April 28, 2005).

Efficiency Review of the Akron, Ohio Processing and Distribution Center (Report
Number NO-AR-05-009, dated March 30, 2005).

Efficiency Review of the Mansfield, Ohio Main Post Office (Report Number NO-AR-05-
004, dated December 8, 2004).

Efficiency of the New York International Service Center (Report Number NO-AR-04-
009, dated September 24, 2004).

Efficiency of the Air Mail Records Unit at the New York International Service Center
(Report Number NO-AR-04-011, dated September 24, 2004).

Efficiency of the San Francisco International Service Center and the General Services
Administration Facility (Report Number NO-AR-04-006, dated March 31, 2004).

Efficiency of the Oakland International Service Facility and the Regatta Facility (Report
Number NO-AR-04-007, dated March 31, 2004).

Efficiency of Work Performed by Business Mail Entry Clerks in the Springfield, Virginia
Business Mail Entry Unit (Report Number NO-AR-04-004, dated February 9, 2004).




                                            11
Status Report on the Evolutionary Network                                 NO-MA-06-001
 Development Initiative


Efficiency of Work Performed by Business Mail Entry Clerks in the Columbia, Maryland
Business Mail Entry Unit (Report Number NO-AR-04-002, dated December 26, 2003).

Efficiency of Work Performed by Business Mail Entry Clerks at the Southern Maryland
Business Mail Entry Unit (Report Number NO-AR-04-001, dated December 24, 2003).

Efficiency of Work Performed by Business Mail Entry Clerks within the San Francisco
District (Report Number AO-AR-03-002, dated September 25, 2003).

Efficiency of Work Performed by Business Mail Entry Clerks within the Los Angeles
District (Report Number AO-AR-03-001, dated July 31, 2003).

Work Performed by Business Mail Entry Employees in the Seattle, Minneapolis, and
Des Moines Bulk Mail Centers (Report Number CQ-AR-03-001, dated March 28, 2003).

Work Performed by Business Mail Entry Employees in the Colorado/Wyoming
Performance Cluster (Report Number CQ-AR-02-001, dated September 26, 2002).

Network Transportation

Surface Transportation - Bulk Mail Center Highway Transportation Routes – Western
Area (Report Number NL-AR-06-001, dated February 14, 2006)

Commercial Air Network Operations (Report Number NL-AR-05-015, dated
September 28, 2005).

Mail Transport Equipment Service Center Network, Highway Transportation Routes,
New York Metro Area (Report Number NL-AR-05-014, dated September 28, 2005).

Bulk Mail Center Transportation Routes, Northeast Area (Report Number NL-AR-05-
013, dated September 26, 2005).

Bulk Mail Center Transportation Routes, Pacific Area (Report Number NL-AR-05-012,
dated September 21, 2005).

Intermodal Rail and Highway Transportation Between the Pacific and Southeast Areas
(Report Number NL-AR-05-011, dated September 19, 2005).

Bulk Mail Center Transportation Routes, Capital Metro Area (Report Number NL-AR-05-
009, dated September 2, 2005).

Bulk Mail Center Transportation Routes, Southwest Area (Report Number NL-AR-05-
008, dated August 3, 2005).




                                            12
Status Report on the Evolutionary Network                               NO-MA-06-001
 Development Initiative


Bulk Mail Center Transportation Routes, New York Metro Area (Report Number NL-AR-
05-007, dated June 9, 2005).

Mail Transport Equipment Service Center Network – Equipment Processing (NL-AR-05-
006, dated March 31, 2005).

Bulk Mail Center Transportation Routes, Southeast Area (Report Number NL-AR-05-
005, dated March 18, 2005).

Intermodal Rail and Highway Transportation, Pacific Area (Report Number NL-AR-05-
004, dated March 18, 2005).

Bulk Mail Center Transportation Routes, Eastern Area (Report Number NL-AR-05-003,
dated March 17, 2005).

Bulk Mail Center Transportation Routes, Great Lakes Area (Report Number NL-AR-04-
004, dated September 29, 2004).

Highway Network Scheduling, Great Lakes Area (Report Number NL-AR-04-003, dated
March 29, 2004).

Highway Network Scheduling, Eastern Area (Report Number TD-AR-03-015, dated
September 30, 2003).

Highway Network Scheduling, Southeast Area (Report Number TD-AR-03-014, dated
September 26, 2003).

Highway Network Scheduling, Western Area (Report Number TD-AR-03-013, dated
September 23, 2003).

Highway Network Scheduling, Southwest Area (Report Number TD-AR-03-010, dated
July 11, 2003).

Highway Network Scheduling, New York Metro Area (Report Number TD-AR-03-008,
dated March 31, 2003).

Highway Network Scheduling, Capital Metro Area (Report Number TD-AR-03-007,
dated March 28, 2003).

Highway Network Scheduling, Northeast Area (Report Number TD-AR-03-002, dated
November 25, 2002).

Highway Network Scheduling, Pacific Area (Report Number TD-AR-02-003, dated
September 24, 2002).




                                            13
Status Report on the Evolutionary Network              NO-MA-06-001
 Development Initiative



                   APPENDIX C. MANAGEMENT’S COMMENTS




                                            14
